No. 19-517

lfn tbe ~upreme <!Court of tbe mlniteb ~tates
DANIEL BARBOSA, ET AL., PETITIONERS

v.
UNITED STATES DEPARTMENT OF HOMELAND SECURITY AND
FEDERAL EMERGENCY MANAGEMENT AGENCY, RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OFAPPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on January 7, 2020, three (3) copies of the REPLY
BRIEF FOR PETITIONERS in the above·captioned case were served, as required
by U.S. Supreme Court Rule 29.5(b), on the following:
Noel Francisco
Solicitor General of the United
States
Department of Justice
950 Pennsylvania Avenue, NW
Room 5616
Washington, DC 20530-0001
supremectbriefs@usdoj.gov

Counsel for Respondents

manda Flug Davidoff
SULLIVAN & CROMWELL LLP
1700 New York Avenue, NW
Suite 700
Washington, DC 20006
(202) 956·7500
da vidoffa@sullcrom.com

